HHS/OIG-Audit--"Medicaid Program Savings Through the Use of Therapeutically Equivalent Generic Drugs, (A-06-93-00008)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Program Savings Through the Use of Therapeutically Equivalent
Generic Drugs," (A-06-93-00008)
July 7, 1994
Complete
Text of Report is available in PDF format (1.25 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report notes that 11 State Medicaid programs have policies in place
that promote the use of generic drugs beyond the current Federal requirements.
Also, the use of generic drugs was being promoted by other programs that provide
health benefits. Some programs require generic substitution when generic drugs
are available, while others use financial incentives as part of their reimbursement
policy. For just 37 high volume brand name drugs, we estimate annual cost savings
to the Medicaid program could be as much as $46 million if the reimbursement for
those drugs is limited to the amounts set by HCFA for equivalent generic drugs.
The cost savings would become even greater in the future as the Federal patents
on exclusive drug manufacturing of 60 highly used brand name drugs with more than
$10 billion in sales expire between now and 1995.